Pension Benefit Guaranty Corporation
    Office of Inspector General
    Management Advisory Letter




     PBGC's Controls Over Handling
       and Processing the Original
      Proof Documents Required For
            Benefit Eligibility




            September 20, 2001
                                     2001-19/23160
                                                                                    Office of Inspector General

                                                                                    September 20, 2001


John Seal 

Acting Executive Director 

Pension Benefit Guaranty Corporation 



            Re: 	 Management Advisory Letter -
                  PBGC's Controls over Handling and Processing the Original Proof Documents
                  required for Benefit Eligibility


     The Office of Inspector General (OIG) was requested by PBGC management to conduct an
evaluation of PBGC's controls regarding handing and processing the original proof documents
required for benefit eligibility. PBGC had received complaints from participants regarding the return
of their original proof documents.

      The Insurance Operations Department (IOD) within PBGC is responsible to continue benefit
payments to participants when their pension plan terminates. IOD administers more than 2,800
pension plans that PBGC has trusteed. These plans represent more than 541,000 participants.
PBGC reports that administration of these plans requires IOD to manage and maintain more than
8,000,000 pages of pension plan and participant information and to answer over 190,000 inquiries
per year. IOD has been converting paper documents to optical images through the use of its Image
Processing System (IPS). The Document Management Center (DMC) was established to systematically
handle information requiring graphic imaging. Before storing paper documents, the DMC scans
paper documents into the IPS. The result is that authorized users may retrieve scanned images at
their workstations rather than referring to paper documentation.

    Documents received and processed by the DMC fall in the following categories: 


      (1) mail and correspondence received from participants and plans; 

      (2) participant information pertaining to eligibility for and payment of benefits; and 

      (3) plan information pertaining to the provisions of the pension plan. 


OBJECTIVES, SCOPE AND METHODOLOGY

    The objective of this evaluation was to review the effectiveness of PBGC’s controls over handling
and processing of the original proof documents1 required for benefit eligibility.

     We reviewed and analyzed written guidance in the DMC Workflow and Control Manual and the
IPS User's Guide. We focused primarily on the new Mail Procedures section, “Processing of Proof
Documents (Passport and INS Certificate of Naturalization)” of the DMC Manual. This section provides
step-by-step guidance on handling passports and INS Certificates of Naturalization, the daily log
sheet for recording chain of custody, and a workflow chart.

        We also interviewed key personnel to confirm our understanding of the process. Our scope
was limited to gaining an understanding of the current process and related




1 Original proof documents are used to veriify age, date of birth, or proof of relationship, and may
include birth or marriage certificates, and passports.
                                                -1-

                                                                                    2001-19/23160
controls as they apply to proof documents. We performed a walk-through of the DMC's mail
processing to observe the flow of transactions and specific control points in the process. Our review
was limited to observing the process and noting whether the controls appeared to be operational. We
did not select transactions for detailed control testing.

OVERVIEW

     On July 2, 2001, PBGC implemented new procedures that incorporated controls to safeguard
original proof documents. Specific control changes were as follows:

         ♦   Designated primary project personnel and backups for various tasks; 

         ♦   Implemented control checks to ensure the chain of custody; 

         ♦   Implemented safeguarding procedures over original proof documents; and 

         ♦   Implemented procedures to control the return of original proof documents and to follow-

             up on undelivered items. This involved changing the primary carrier from the United
             States Postal Service (USPS) to Federal Express (Fed Ex).

     On July 19, 2001, we performed a walk-through of the DMC's mail handling process to observe
the controls in operation. The following summarizes PBGC’s mail handling process and our
observations:

•	   The original proof documents are entered into ScoRe2. A photocopy of the original proof
     document is used for scanning into IPS. The Mail Clerk places the original proof documents into
     a separate batch and enters the participant's full name, SSN, Plan Number and ScoRe Control
     Number on the original proof document’s daily log sheet (log sheet). The original proof documents
     and log sheets are delivered directly to the Lead Mail Clerk.

•	   The Lead Mail Clerk verifies the original proof documents against the list of participants on the
     log sheet. After it has been verified, the Mail Clerk and Lead Mail Clerk sign off on the log sheet.

•	   The Lead Mail Clerk delivers all original proof documents along with the log sheet to the DMC
     Help Desk Specialist. The Help Desk Specialist accounts for all original proof documents and
     signs off on the log sheet. The original proof documents are immediately secured until processing
     for return to the participant or beneficiary. The original proof documents that are held overnight
     are placed in a locked file cabinet.

•	   By the next business day, the DMC Help Desk Specialist types an address listing for each
     participant and forwards this listing to the Task Leader, Data Records Management Group (DRM)
     via email.

•	   The DRM Task Leader is responsible for creating Fed Ex labels for each participant. After all the
     Fed Ex labels have been generated, the DRM Task Leader checks the Fed Ex address labels for
     accuracy and delivers them to the DMC Help Desk Specialist between 2:30 p.m. and 3:30 p.m.
     each day. The Fed Ex machine generates a tracking number for each label printed. In addition, a
     receipt of all Fed Ex labels is generated. The DRM Task Leader makes a copy of the address list
     and attaches the Fed Ex receipt to the address list. The DRM Task Leader maintains copies of
     the Fed Ex receipts for ninety days. Upon receipt of the Fed Ex labels, the Help Desk Specialist
     double checks the address for accuracy. The Help Desk Specialist notifies the DRM Task Leader
     of any errors and requests new Fed Ex labels. The Help Desk Specialist inserts the appropriate
     original proof documents into a Fed Ex letter package, attaches the appropriate Fed Ex label, and
     places the packages in the Fed Ex drop-box located in the lobby of 1200 K Street by 6:00 p.m.
     each business day.




2 The Standard Tracing and Retrieval System (ScoRe) codes incoming mail by writing participant
index information and a ScoRe control number on each mail document.
                                                  -2-

                                                                                     2001-19/23160
•	   For those participants or beneficiaries using a Post Office Box, a U.S. Postal Service certified
     receipt request with proof of delivery request is used to track the return of the original proof
     documents (Fed Ex does not deliver to a Post Office Box).

•	   After three business days, the DMC Help Desk Specialist verifies delivery of the Fed Ex package
     by checking Fed Ex on-line, and notes the tracking number and address of any undelivered Fed
     Ex package. If a package is listed as undelivered after four business days, the DMC Project
     Manager will follow-up with Fed Ex to trace the package.

OIG FINDINGS

         We noted that prior procedures failed to establish controls to adequately segregate duties,
safeguard original proof documents, and return original proof documents to participants. For
example, the same mail clerk that received the documents would process them. Original documents
were not secured. Chain of custody was not maintained and the return of documents was not
controlled. Envelopes containing the original proof documents were delivered to Facilities and
Services Department (FASD) for mailing without a control in place to track the mail through FASD to
the participant.

        PBGC’s new procedures implement key controls throughout the process which enhanced the
security of original documents from their receipt, through processing and finally to their return to
participants. We found that the controls incorporated in the new procedures appeared to be
operational.

SUGGESTIONS FOR IMPROVEMENT

         The newly implemented mail handling procedures, Processing of Proof Documents (Passport
and INS Certificate of Naturalization), by its title, states that the procedures are to be used in
processing passports and INS Certificates of Naturalization proof documents. However, PBGC may
receive other types of original documents, such as birth certificates or marriage certificates. Because
the new procedures are limited to passports and INS Certificates of Naturalization, other original
proof documents would not be covered. Therefore, we suggest that the guidelines be changed to cover
processing all original proof documents that are received in the DMC.


                                           Sincerely,




                                           Wayne Robert Poll
                                           Inspector General




                                                  -3-

                                                                                      2001-19/23160
